March 2008
Report No. AUD-08-008


FDIC’s Contract Oversight Management
of the Infrastructure Services Contract



            AUDIT REPORT

   Material has been redacted from this
 report to protect sensitive, confidential or
           privileged information.
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General




DATE:                                     March 27, 2008

MEMORANDUM TO:                            Michael E. Bartell, Chief Information Officer and
                                          Director, Division of Information Technology

                                          Arleas Upton Kea, Director
                                          Division of Administration



FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  FDIC's Contract Oversight Management of the
                                          Infrastructure Services Contract
                                          (Report No. AUD-08-008)


The subject final report is provided for your information and use. Please refer to the
Executive Summary, included in the report, for the overall audit results. Our evaluation
of your response is incorporated into the body of the report. Your comments on a draft of
this report were responsive to the recommendations. Sufficient action has been taken to
close recommendation 6. The remaining recommendations will remain open for
reporting purposes until we have determined that agreed-to corrective actions have been
completed and are responsive.

This report contains information that may be proprietary. Accordingly, we request
that you safeguard this report to the fullest extent possible and make no disclosures
of this report, or information therefrom, outside the FDIC without prior permission
of the Inspector General. We will redact proprietary information prior to releasing
the final report publicly.

If you have questions concerning the report, please contact me at (703) 562-6350 or
Mark F. Mulholland, Director, Corporate Management and Security Audits, at
(703) 562-6316. We appreciate the courtesies extended to the audit staff.

Attachment
cc:    Rack D. Campbell, DIT
       James H. Angel, Jr., OERM
       Daniel H. Bendler, DOA
Contents                                             Page


BACKGROUND                                             1

AUDIT OBJECTIVES AND APPROACH                          7

OVERALL RESULTS                                        9

ROLES AND RESPONSIBILITIES                            12

PROCUREMENT MANAGEMENT                                15

ACQUISITION POLICIES                                  16

AWARD FEE DETERMINATIONS                              17

CONTRACTOR INTEGRITY AND FITNESS                      18

RECOMMENDATIONS                                       19

CORPORATION COMMENTS AND OIG EVALUATION               22

APPENDICES
   1. OBJECTIVES, SCOPE, AND METHODOLOGY              23
   2. CORPORATION COMMENTS                            27
   3. MANAGEMENT RESPONSE TO RECOMMENDATIONS          31

TABLE
  ISC Facts at a Glance                                1

FIGURES
  1. Annual Corporate IT Expenditures                  3
  2. Ceiling Amounts for Key Components of the ISC     4
  3. FDIC Assessments of SRA’s Performance             5
  4. ISC Governance Structure                          6
                                     Background

                                                 ISC Facts at a Glance
In June 2004, the FDIC’s Board
of Directors approved                            Contract Type           Cost Plus Award Fee
expenditure authority totaling                                           (Performance-based)
$357 million to procure                          Ceiling Price           $341,766,035
information technology (IT)
infrastructure services through                  Term                    5 years (1 base year, plus four
                                                                         1-year option periods)
the General Services
Administration’s (GSA) Federal                   Period of               September 21, 2004 –
Systems Integration and                          Performance             September 20, 2009
Management (FEDSIM) Center.                      Sponsoring              Division of Information
                                                 Division                Technology (DIT)
In September 2004, FEDSIM                        Prime Contractor        SRA
awarded a task order (the
                                                 Key Subcontractors
Infrastructure Services                                                         [Material Redacted]
Contract—ISC) to Systems
Research Applications
International, Inc. (SRA), under                 Contractor Staff        Approximately 205
the Millennia Government-wide                  Source: Office of Inspector General (OIG) analysis of ISC
Acquisition Contract program.                         documentation.


                               This Report Contains Confidential Information
       For Official Use Only                       1                    Restricted Distribution
                          Background (Cont.)

IT infrastructure services procured through
the ISC include (among other things):

    •   Mainframe Data Center Operations
    •   Local Area Network Management
    •   Hardware and Software
        Procurements
    •   Help Desk Operations                                        FDIC’s mainframe computer at the Virginia
                                                                              Square Data Center.
    •   Telecommunications Support
    •   Equipment and Software
        Maintenance
    •   Disaster Recovery Operations
    •   Security Operations
    •   Wireless Communications
    •   Desktop and Server Engineering
    •   IT Asset Management
                                                                     Servers on the Local Area Network at the
                                                                           Virginia Square Data Center.

                                This Report Contains Confidential Information
        For Official Use Only                       2                    Restricted Distribution
                           Background (Cont.)
                                                             Figure 1. Annual Corporate IT Expenditures
                                           Expe nditure s

The portion of DIT’s                        250,000,000

expenditures pertaining to
                                            200,000,000
the ISC increased during
the initial years of the                    150,000,000
contract. This occurred as
SRA assumed increasing                      100,000,000

responsibility for the
                                             50,000,000
FDIC’s IT infrastructure.
As a result of the ISC, DIT                                                              ISC               ISC               ISC
                                                         0
was able to eliminate 36                                             2004                2005              2006              2007
individual IT infrastructure                                                            Ye ar
                                                                                                                                 *
contracts.                                                       IT Investment   Expenditures*    DIT   Expenditures**

                                      Source: OIG analysis of financial information provided by DIT and the Division of
                                              Finance. DIT expenditures include a nominal amount of expenses funded by
                                              other FDIC divisions and offices.
                                      *    IT Investment Expenditures are for corporate IT investment projects approved by the
                                           FDIC’s Board of Directors as part of the Corporate Investment Budget.
                                      **   DIT Expenditures are for DIT’s operating budget.


                                 This Report Contains Confidential Information
         For Official Use Only                               3                         Restricted Distribution
                         Background (Cont.)
                                          Figure 2. Ceiling Amounts for Key Components
                                                              of the ISC
According to financial                              (Total Ceiling: $341,766,035)
information provided by
DIT, the FDIC had                                               Labor
expended $191,401,707                                       ($133,799,133)                 Technical
                                                                                            Refresh
of the ISC’s                                                                             ($63,194,557)
$341,766,035
ceiling amount as of                            Hardware/Software                       Tools
December 31, 2007.                                Maintenance                       ($47,100,000)
                                                       ($89,873,737)




                                                                                  Other ($7,798,608)
                                     Source: OIG analysis of ISC documentation. Component figures reflect
                                             proposed contract ceiling amounts as of October 2007.




                               This Report Contains Confidential Information
       For Official Use Only                       4                    Restricted Distribution
                           Background (Cont.)


The FDIC’s assessments of
SRA’s performance under
the ISC have been
favorable.                                                      [Material Redacted]

As of October 2007, the
FDIC had awarded

[Material Redacted]

fees available at that date
under the ISC.
                                      Source: OIG analysis of ISC award fee evaluation reports.




                                 This Report Contains Confidential Information
         For Official Use Only                       5                     Restricted Distribution
                              Background (Cont.)
                         Figure 4. ISC Governance Structure
Award
 AwardFee
       FeeEvaluation
           Evaluation                       FEDSIM
                                             FEDSIM                  Millennia Contract                    SRA
                                                                                                            SRA
       Board
        Board                                                               ISC

                                   Interagency    Agreement                                      IT Services   Reporting


                                   Federal Deposit Insurance Corporation
                                                 ISC
                                                  ISCOversight
                                                      OversightCommittee
                                                                Committee


                                                 ISC
                                                  ISCProgram
                                                      ProgramManagement
                                                                Management
          Division
           DivisionofofAdministration
                        Administration                Program Manager
                                                       Program Manager          DIT
                                                                                 DITProcurement
                                                                                     ProcurementManagement
                                                                                                ManagementBoard
                                                                                                           Board
         Acquisition
          AcquisitionServices
                       ServicesBranch
                                Branch              Subject
                                                     SubjectMatter
                                                            MatterExperts
                                                                   Experts




        Operations
         Operations                      Security
                                          Security                   Engineering
                                                                      Engineering            Asset
                                                                                              AssetMgt
                                                                                                   Mgt&&Procurement
                                                                                                           Procurement
     Technical
      TechnicalMonitor
               Monitor               Technical
                                      TechnicalMonitor
                                               Monitor             Technical
                                                                    TechnicalMonitor
                                                                             Monitor             Technical
                                                                                                  TechnicalMonitor
                                                                                                            Monitor
   Subject
    SubjectMatter
           MatterExperts           Subject
                                    SubjectMatter
                                           MatterExperts         Subject
                  Experts                         Experts         SubjectMatter
                                                                         MatterExperts
                                                                                Experts        Subject
                                                                                                SubjectMatter
                                                                                                       MatterExperts
                                                                                                              Experts


                                    This Report Contains Confidential Information
           For Official Use Only                            6                   Restricted Distribution
      Audit Objectives and Approach
• The objectives of the audit were to assess:
   – the FDIC's contract oversight management of SRA and
     its subcontractors, including subcontractor selection
     and performance, and
   – support for payments made by the FDIC for IT goods
     and services provided by SRA and its subcontractors.

• To accomplish our objectives, we:
   – interviewed officials from FDIC, SRA, and the GSA’s
     FEDSIM Center;
   – analyzed relevant reports, documents, and policies and
     procedures; and
   – observed key meetings related to the ISC.
                              This Report Contains Confidential Information
      For Official Use Only                       7                    Restricted Distribution
    Audit Objectives and Approach (Cont.)
•    We engaged the Defense Contract Audit Agency (DCAA) to audit
     selected invoices submitted by SRA and two of its subcontractors
     (                    [Material Redacted]                         ).

•    Key criteria used in the audit included relevant regulations, FDIC
     policies and procedures, the ISC (and its deliverable products), and
     government and industry-recommended practices.

•    We performed our audit work from October through December 2007
     in accordance with generally accepted government auditing standards.

•    Details on our objectives, scope, and methodology are in Appendix 1.




                                This Report Contains Confidential Information
        For Official Use Only                       8                    Restricted Distribution
                                Overall Results
•   The FDIC implemented a framework of controls designed
    to ensure effective contract oversight management of
    SRA and its subcontractors. However, the FDIC can
    strengthen its oversight management of SRA in some
    control areas.

•   DCAA found that, except for a minor amount of labor and
    applied indirect costs that did not meet the labor
    qualifications of the contract, costs for IT goods and
    services invoiced under the ISC were allowable, allocable,
    and reasonable. The minor questioned costs have been
    forwarded to DIT for appropriate action through GSA.



                               This Report Contains Confidential Information
       For Official Use Only                       9                    Restricted Distribution
                    Overall Results (Cont.)
•   The FDIC has implemented several contract oversight
    management controls that are based on government and
    industry-recommended practices. Such controls include:
    – A Program Manager, Technical Monitors, and Subject Matter
      Experts who monitor work and assess performance
    – A comprehensive award fee determination process that evaluates
      contractor and subcontractor performance
    – A DIT Procurement Management Board that reviews budgets and
      procurement actions for items procured through the ISC
    – Regularly scheduled reports and meetings with SRA
    – A formal process that assesses risks associated with contract
      service providers, such as SRA
•   SRA selected subcontractors consistent with the Federal
    Acquisition Regulation and the terms and conditions of
    the ISC.
                               This Report Contains Confidential Information
       For Official Use Only                       10                   Restricted Distribution
                     Overall Results (Cont.)
•   The FDIC can strengthen its contract oversight management of SRA
    in the following control areas:

    –   ISC Oversight Roles and Responsibilities
    –   Acquisition Policies
    –   Award Fee Determination Process
    –   Contractor and Subcontractor Integrity and Fitness
    –   Review of Contractor and Subcontractor Invoices

•   Management attention to these areas will strengthen ISC governance
    and promote transparency and communication (throughout the ISC
    program).

•   Notably, corrective action is ongoing in a number of areas.



                                This Report Contains Confidential Information
        For Official Use Only                       11                   Restricted Distribution
                         Roles and Responsibilities
ISC Oversight Roles and
 Responsibilities
• DIT documented the ISC Oversight
  Committee’s general duties and responsibilities
  inAward
     memoranda   to FEDSIM officials. However,
     AwardFee
  a formal FeeEvaluation
                Evaluation
           charter had not been developed that FEDSIM                        Millennia Contract                     SRA
                                                   FEDSIM                                                            SRA
  described,Board
             Board
              among other things, the committee’s                                   ISC
  purpose, reporting responsibilities, and
  meetings schedule.
                                         Interagency   Agreement                                          IT Services   Reporting
• Minutes for committee meetings had not been
  prepared.
                                        Federal Deposit Insurance Corporation
• The committee’s membership consisted of the            ISC
  Chief Information Officer (CIO), the Deputy              ISCOversight
                                                               OversightCommittee
                                                                          Committee
  CIO for Infrastructure, and a Division of
  Administration (DOA) Associate Director. DIT
  could benefit by expanding the committee’s
  membership to obtain greater user                     ISC
                                                          ISCProgram
                                                              ProgramManagement
                                                                        Management
            DOA
  representation. Acquisition  Services Branch
             DOA Acquisition Services Branch                  Program Manager
                                                               Program Manager            DIT
                                                                                           DITProcurement
                                                                                                ProcurementManagement
                                                                                                            ManagementBoard
                                                                                                                         Board
                                                            Subject
                                                             SubjectMatter
                                                                    MatterExperts
                                                                           Experts
• Subsequent to our field work, and based on the
  preliminary results of our audit, the FDIC
  formally adopted an ISC Oversight Committee
  Charter and expanded the membership of the
  committee during a January 29, 2008 meeting
  of the CIOOperations
              Council. The ISC Oversight Security                              Engineering              Asset
  CommitteeOperations                            Security
              charter requires, among other things,                              Engineering             AssetMgt
                                                                                                               Mgt&&Procurement
                                                                                                                      Procurement
          Technical
  the appointment   Monitor
                    of a Secretariat
           Technical Monitor         who  isTechnical Monitor
                                             Technical Monitor               Technical Monitor
                                                                              Technical Monitor             Technical
                                                                                                             TechnicalMonitor
                                                                                                                       Monitor
  responsible for scheduling meetings and
        Subject Matter
                 MatterExperts           Subject
                                          SubjectMatter
                                                  MatterExperts            Subject
         Subject
  recording  minutes.   Experts
                        Because these actions            Experts            SubjectMatter
                                                                                   MatterExperts
                                                                                          Experts         Subject
                                                                                                           SubjectMatter
                                                                                                                  MatterExperts
                                                                                                                         Experts
  address our concerns, we are making no
  recommendation in this area.
                                         This Report Contains Confidential Information
               For Official Use Only                            12                      Restricted Distribution
        Roles and Responsibilities (Cont.)
ISC Oversight Roles and Responsibilities
 Significant ISC responsibilities are vested in the ISC Program Manager position, including:
    • Managing and overseeing the ISC program, including strategic planning, coordination of ISC oversight
  Award Fee
     team   Evaluation
         Feemembers,
             Evaluation financial and budget administration, and liaison
   Award                                  FEDSIM
                                           FEDSIM                 Millenniawith FEDSIM, SRA, andSRA
                                                                           Contract              DIT
                                                                                                 SRA
         Board
     management
          Board                                                          ISC
    • Chairing the Award Fee Evaluation Board
                                 Interagency
    • Directly supervising the ISC            Agreement for IT Asset Management and Procurement
                                    Technical Monitor                                   IT Services and
                                                                                                     Reporting
                                                                                                        several
      Subject Matter Experts
    • Serving in back-up or acting capacities for the Deputy CIO for Infrastructure, Technical Monitors, and
                                 Federal
      Subject Matter Experts on an          Deposit
                                     as-needed basisInsurance Corporation
 DIT contemplated segregating some of theseISCISCOversight
                                               duties      Committee
                                                      between
                                                  Oversight    two ISC positions when the ISC program was
                                                            Committee
 established. DIT could enhance internal control by segregating these duties, where appropriate, when it
 completes ongoing efforts to hire an Infrastructure Project Manager and Service Delivery Manager in the
 Infrastructure Services Branch.
                                                  ISC
                                                   ISC Program  Management
                                                        ProgramManagement
                                                                 Management
                                                  ISC
                                                   ISCProgram
                                                        Program  Management
         DOA
          DOAAcquisition
              AcquisitionServices
                          ServicesBranch
                                   Branch              Program Manager
                                                        Program Manager          DIT
                                                                                  DITProcurement
                                                                                      ProcurementManagement
                                                                                                 ManagementBoard
                                                                                                            Board
                                                     Subject
                                                      SubjectMatter
                                                             MatterExperts
                                                                    Experts




          Operations
           Operations                     Security
                                           Security                   Engineering
                                                                       Engineering            Asset
                                                                                               AssetMgt
                                                                                                    Mgt&&Procurement
                                                                                                            Procurement
       Technical
        TechnicalMonitor
                 Monitor              Technical
                                       TechnicalMonitor
                                                Monitor             Technical
                                                                     TechnicalMonitor
                                                                              Monitor             Technical
                                                                                                   TechnicalMonitor
                                                                                                             Monitor
     Subject
      SubjectMatter
             MatterExperts          Subject
                                     SubjectMatter
                                            MatterExperts         Subject
                    Experts                        Experts         SubjectMatter
                                                                          MatterExperts
                                                                                 Experts        Subject
                                                                                                 SubjectMatter
                                                                                                        MatterExperts
                                                                                                               Experts


                                     This Report Contains Confidential Information
            For Official Use Only                            13                  Restricted Distribution
    Roles and Responsibilities (Cont.)

Award
 AwardFee
       FeeEvaluation
           Evaluation                       FEDSIM
                                             FEDSIM                    Millennia Contract                    SRA
                                                                                                              SRA
       Board
        Board                                                                 ISC

                                   Interagency    Agreement                                        IT Services   Reporting

ISC Oversight Roles and Responsibilities
                                   Federal Deposit Insurance Corporation
DIT documented duties and responsibilities for the ISC Technical
Monitors and Subject Matter Experts in memoranda
                                               ISC         to FEDSIM
                                                 ISCOversight
                                                     OversightCommittee
                                                               Committee
officials. However, these duties and responsibilities      do not
reflect current practices in some areas. In addition, DIT could
promote transparency and communication among its ISC
program staff, SRA personnel, and SRA subcontractor
                                              ISC             personnel
                                                ISCProgram
                                                    ProgramManagement
                                                             Management
by incorporating
        DOA       Technical
         DOAAcquisition
                               Monitor
             AcquisitionServices
                         ServicesBranch
                                        and Subject    Matter Expert
                                                    Program                       DIT
                                                                                   DITProcurement
                                                                                       ProcurementManagement
                                                                                                  ManagementBoard
                                  Branch
duties and responsibilities into a formal DIT SubjectProgramManager
                                                  policy.    Manager                                         Board
                                                         Matter Experts
                                                    Subject Matter Experts




         Operations
          Operations                     Security
                                          Security                     Engineering
                                                                        Engineering            Asset
                                                                                                AssetMgt
                                                                                                     Mgt&&Procurement
                                                                                                             Procurement
      Technical
       TechnicalMonitor
                Monitor              Technical
                                      TechnicalMonitor
                                               Monitor               Technical
                                                                      TechnicalMonitor
                                                                               Monitor             Technical
                                                                                                    TechnicalMonitor
                                                                                                              Monitor
    Subject
     SubjectMatter
            MatterExperts          Subject
                                    SubjectMatter
                                           MatterExperts          Subject
                   Experts                        Experts          SubjectMatter
                                                                          MatterExperts
                                                                                 Experts         Subject
                                                                                                  SubjectMatter
                                                                                                         MatterExperts
                                                                                                                Experts


                                    This Report Contains Confidential Information
           For Official Use Only                            14                    Restricted Distribution
                   Procurement Management

Award
 AwardFee
       FeeEvaluation
           Evaluation                       FEDSIM
                                             FEDSIM                  Millennia Contract                    SRA
                                                                                                            SRA
       Board
        Board                                                               ISC

                                   Interagency    Agreement                                      IT Services   Reporting

                                                                      DIT Procurement Management Board
                                   Federal Deposit Insurance Corporation
                                                             The DIT Procurement Management Board
                                                                      is an excellent control for reviewing IT
                                                 ISC
                                                  ISCOversight
                                                      OversightCommittee
                                                                Committee
                                                                     procurement actions under the ISC.


                                                 ISC
                                                  ISCProgram
                                                      ProgramManagement
                                                                Management
       DOA
        DOAAcquisition
            AcquisitionServices
                        ServicesBranch
                                 Branch               Program Manager
                                                       Program Manager          DIT
                                                                                 DITProcurement
                                                                                     ProcurementManagement
                                                                                                ManagementBoard
                                                                                                           Board
                                                    Subject
                                                     SubjectMatter
                                                            MatterExperts
                                                                   Experts




        Operations
         Operations                      Security
                                          Security                   Engineering
                                                                      Engineering            Asset
                                                                                              AssetMgt
                                                                                                   Mgt&&Procurement
                                                                                                           Procurement
     Technical
      TechnicalMonitor
               Monitor               Technical
                                      TechnicalMonitor
                                               Monitor             Technical
                                                                    TechnicalMonitor
                                                                             Monitor             Technical
                                                                                                  TechnicalMonitor
                                                                                                            Monitor
   Subject
    SubjectMatter
           MatterExperts           Subject
                                    SubjectMatter
                                           MatterExperts         Subject
                  Experts                         Experts         SubjectMatter
                                                                         MatterExperts
                                                                                Experts        Subject
                                                                                                SubjectMatter
                                                                                                       MatterExperts
                                                                                                              Experts


                                    This Report Contains Confidential Information
           For Official Use Only                            15                  Restricted Distribution
                              Acquisition Policies
                                                   Acquisition Policies
                                                   The FDIC’s Acquisition Policy Manual (APM) does not
Award
                                                   address performance-based acquisitions. DOA needs to give
 AwardFee
       FeeEvaluation
           Evaluation
       Board                                 FEDSIMpriority attentionMillennia
                                            FEDSIM                             Contract planned revisions
                                                                      to completing                     SRA
                                                                                                          to the APM
                                                                                                         SRA
        Board                                      that will address, among ISC other things, performance-based
                                                   acquisitions.
                                   Interagency    Agreement                                      IT Services   Reporting
                                                Several Technical Monitors and Subject Matter Experts
                                                expressed interest in obtaining additional performance-based
                                                contract
                                   Federal Deposit       management
                                                    Insurance           training to help them more effectively
                                                                 Corporation
                                                carry out their ISC duties. Because the FDIC has a number of
                                             ISC
                                                performance-based
                                                 Oversight
                                                                      contracts, DOA should work with the
                                              ISC OversightCommittee
                                                Corporate   Committee
                                                            University to address this need.
                                                     Although not required to do so, DOA conducts periodic on-site
                                                     inspections of SRA’s procurement files to review SRA’s
                                                 ISC  Program
                                                       ProgramManagement
                                                  ISCprocurement    practices. Such oversight is commendable. The
                                                                Management
       DOA
        DOAAcquisition
            AcquisitionServices
                        ServicesBranch
                                 Branch               Program
                                                     FDIC      Manager
                                                            would
                                                       Program                    DIT
                                                                                   DITProcurement
                                                                    benefit by formally
                                                                Manager                ProcurementManagement
                                                                                                         this Board
                                                                                                   Management
                                                                                           documenting         Board
                                                                                                              internal
                                                     control
                                                    Subject   to ensure
                                                     SubjectMatter
                                                            MatterExperts
                                                                   Experts
                                                                          the inspections  continue  and meet
                                                     management’s     expectations.
                                                   FEDSIM has contracting authority over the ISC. Accordingly,
                                                   DOA does not approve procurement actions processed through
                                                   the ISC. The FDIC would benefit by clarifying DOA’s role in
        Operations
         Operations                      Security
                                          Security connection withEngineering
                                                                   ISC                Asset
                                                                                       AssetMgt
                                                                        procurement actions.
                                                                   Engineering               Mgt&&Procurement
                                                                                                   Procurement
     Technical
      TechnicalMonitor
               Monitor               Technical
                                      TechnicalMonitor
                                                Monitor            Technical
                                                                    TechnicalMonitor
                                                                              Monitor            Technical
                                                                                                  TechnicalMonitor
                                                                                                            Monitor
   Subject
    SubjectMatter
           MatterExperts           Subject
                                    SubjectMatter
                                           MatterExperts         Subject
                  Experts                         Experts         SubjectMatter
                                                                         MatterExperts
                                                                                Experts        Subject
                                                                                                SubjectMatter
                                                                                                       MatterExperts
                                                                                                              Experts


                                    This Report Contains Confidential Information
           For Official Use Only                            16                  Restricted Distribution
                   Award Fee Determinations
                             Award Fee Determination Process
                             The Award Fee Determination Plan needs to be updated in some key areas,
Award
 AwardFee
       FeeEvaluation
           Evaluation
                             including a clarification of criteria used to assess SRA’s performance under
                             the ISC. InFEDSIM
                                         FEDSIM                   Millenniaby
                                          addition, DIT would benefit      Contract                 SRA
                                                                                                     SRA
                                                                              appointing a Secretariat to
       Board
        Board                                                            ISC
                             maintain the Award Fee Determination Plan and related documentation.
                             DIT,Interagency    Agreement
                                    in coordination                                      IT Services
                                                     with FEDSIM, established and periodically          Reporting
                                                                                                   revised
                             Service Level Agreements (SLA)* to assess SRA’s performance on the ISC
                             and support award fee evaluations. Such actions are positive. However,
                                 Federal
                             according   to Deposit   Insurance
                                             some Technical       Corporation
                                                               Monitors and Subject Matter Experts, additional
                             revisions to certain SLAs were needed to achieve more optimal contractor
                             performance outcomes.
                                               ISC
                                                ISCOversight
                                                    OversightCommittee
                                                              Committee
                              ISC Technical Monitors report regularly to the Award Fee Evaluation Board
                              regarding the performance of SRA and its subcontractors. However, each
                              Technical Monitor votes on award fee evaluations on a rotational basis (or
                                             ISC
                                              ISCProgram
       DOA Acquisition
                              once
                       Services
                                    every 2 years).
                                Branch
                                                     DIT Management
                                                  Program   Management
                                                           can   create a stronger
                                                                               DIT
                                                                                     link between technical
        DOA Acquisition Services Branch           Program
                                                   Program Manager
                                                            Manager
                              assessments of SRA’s performance and award        DITProcurement
                                                                                    ProcurementManagement
                                                                                                Management
                                                                                    fee decisions
                                                                                                          Board
                                                                                                  by havingBoard
                                                                                                             each
                              Technical Monitor Subject
                                                  vote  Matter
                                                         on    Experts
                                                 Subject Matter Experts
                                                             each  award   fee evaluation.

                             * An SLA is a written contract between a provider of a service and the customer of that
                             service to establish measurable targets of performance with the objective of achieving a
                             common understanding of the level of service required.
        Operations
         Operations                    Security
                                        Security                     Engineering
                                                                      Engineering            Asset
                                                                                              AssetMgt
                                                                                                    Mgt&&Procurement
                                                                                                           Procurement
     Technical
      TechnicalMonitor
               Monitor             Technical Monitor
                                    Technical Monitor              Technical Monitor
                                                                    Technical Monitor            Technical
                                                                                                  TechnicalMonitor
                                                                                                            Monitor
   Subject
    SubjectMatter
           MatterExperts           Subject
                                    SubjectMatter
                                           MatterExperts         Subject
                  Experts                         Experts         SubjectMatter
                                                                         MatterExperts
                                                                                Experts        Subject
                                                                                                SubjectMatter
                                                                                                       MatterExperts
                                                                                                              Experts


                                    This Report Contains Confidential Information
           For Official Use Only                            17                  Restricted Distribution
              Contractor Integrity and Fitness
Contractor Integrity and Fitness
We sampled six subcontractors engaged by SRA to provide services under
the ISC and found that one had not completed Integrity and Fitness
 Award
  AwardFee
        FeeEvaluation
            Evaluation
Representations    and Certifications required    by 12 Code of Federal
                                           FEDSIM
                                            FEDSIM                   Millennia Contract                   SRA
                                                                                                           SRA
        Board
Regulations
         BoardPart 366. DIT and SRA officials advised us that this particular
                                                                            ISC
subcontractor did not complete the Integrity and Fitness Representations and
Certifications because the subcontractor
                                  Interagency is considered
                                                  Agreement to be a “vendor,” and               IT Services   Reporting
as such, its services are exempt from the requirements of Part 366. However,
such an exemption does not exist under Part 366. Subsequent to our
fieldwork, DIT obtained the Integrity
                                  Federal andDeposit
                                                Fitness Insurance
                                                        Representations    and
                                                                    Corporation
Certifications for this subcontractor. Accordingly, we are not making a
recommendation in this area.                     ISC Oversight Committee
                                                 ISC Oversight Committee
The FDIC generally completed background investigations, confidentiality
agreements, and contractor pre-exit clearance procedures for the contractor
and subcontractor employees that we sampled. However, we did note some
                                             ISC
                                              ISCProgram
exceptions. DIT and DOA should place additional            Management
                                                        emphasis
                                                  Program          on ensuring that
                                                            Management
       DOA Acquisition
        DOA Acquisition
such procedures        Services Branch
                        Services Branch
                are consistently                  Program
                                    followed. We Program  Manager
                                                   are notManager
                                                             making a       DIT
                                                                             DITProcurement
                                                                                 ProcurementManagement
                                                                                            ManagementBoard
                                                                                                       Board
recommendation, however, because OIG Evaluation Subject
                                                 SubjectMatter
                                                        MatterExperts
                                                         Report   No.
                                                               Experts EM-08-002,
Information Technology Procurement Integrity and Governance, includes a
recommendation to address our concerns.

Oversight of Contractor Invoices
         Operations                     Security                    Engineering             Asset
                                                                                             AssetMgt
                                                                                                  Mgt&&Procurement
The FDICOperations
            does not have a corporate Security                       Engineering
                                          program for conducting periodic       audits                    Procurement
      Technical
of contractor    Monitor
       Technicalinvoices            Technical
                 Monitor to ensure that
                                     TechnicalMonitor
                                         billedMonitor            Technical
                                                                   Technical
                                                 costs are allowable,       Monitor
                                                                             Monitor
                                                                      allocable,                Technical
                                                                                                 TechnicalMonitor
                                                                                                           Monitor
reasonable,
    Subject  and Experts
     SubjectMatter consistent withSubject Matter
                                           MatterExperts
                                   contractual    terms and conditions.
                                                                Subject   TheExperts
                                                                        Matter   OIG is       Subject
            Matter Experts         Subject        Experts        Subject
establishing a risk-based contract audit program to address this issue;  Matter Experts        SubjectMatter
                                                                                                      MatterExperts
                                                                                                             Experts
accordingly, we are making no recommendation in this area.
                                    This Report Contains Confidential Information
           For Official Use Only                         18                    Restricted Distribution
                         Recommendations

With regard to ISC oversight roles and responsibilities, we
recommend that the Director, DIT:

1. Segregate the duties of the ISC Program Manager position, where
   appropriate, when DIT completes ongoing efforts to hire an
   Infrastructure Project Manager and Service Delivery Manager in the
   Infrastructure Services Branch.

2. Update the FDIC’s memorandum to FEDSIM regarding Technical
   Monitor and Subject Matter Expert duties and responsibilities to
   reflect current practices, and incorporate these duties and
   responsibilities into a formal DIT policy.




                             This Report Contains Confidential Information
     For Official Use Only                       19                   Restricted Distribution
              Recommendations (Cont.)

With regard to the Award Fee Determination Process, we
recommend that the Director, DIT, in coordination with
FEDSIM:

3. Update the Award Fee Determination Plan to reflect current practices,
   including clarifying criteria used to assess SRA’s performance under
   the ISC and requiring Technical Monitors to vote on each award fee
   evaluation, and appoint a Secretariat to maintain the Award Fee
   Determination Plan and related documentation.

4. Coordinate with the Technical Monitors and Subject Matter Experts to
   determine whether certain SLAs need to be revised in order to achieve
   more optimal contractor performance outcomes.



                             This Report Contains Confidential Information
     For Official Use Only                       20                   Restricted Distribution
              Recommendations (Cont.)
With regard to acquisition policies, we recommend that the
Director, DOA:

  5. Address performance-based acquisitions in the FDIC’s Acquisition
     Policy Manual.

  6. Work with the Corporate University to develop performance-based
     contract management training.

  7. Document DOA’s internal control of conducting periodic on-site
     inspections of procurement files to review contractor procurement
     practices.

  8. Clarify DOA’s role in connection with ISC procurement actions.



                             This Report Contains Confidential Information
     For Official Use Only                       21                   Restricted Distribution
Corporation Comments and OIG Evaluation

On March 19, 2008, the CIO and Director, DIT, and the
Director, DOA, provided a written response to a draft of this
report. The Corporation’s response is in Appendix 2.
Management concurred with our recommendations and
provided planned, ongoing, and completed corrective action. A
summary of management’s response to each recommendation
is in Appendix 3.

Sufficient action has been taken to close recommendation 6.
The remaining recommendations are resolved but will remain
open until we determine that the agreed-to corrective actions
have been completed and are responsive.



                             This Report Contains Confidential Information
     For Official Use Only                       22                   Restricted Distribution
                                                                                  APPENDIX 1
                        OBJECTIVES, SCOPE, AND METHODOLOGY



Objectives and Scope

      The objectives of the audit were to assess (1) the FDIC’s contract oversight management
      of SRA and its subcontractors, including subcontractor selection and performance and
      (2) support for payments made by the FDIC for IT goods and services provided by SRA
      and its subcontractors. We conducted this performance audit from October through
      December 2007 in accordance with generally accepted government auditing standards
      (GAGAS). Those standards require that we plan and perform the audit to obtain
      sufficient, appropriate evidence to provide a reasonable basis for our findings and
      conclusions based on our audit objectives. We believe that the evidence obtained
      provides a reasonable basis for our findings and conclusions based on our audit
      objectives.

      The scope of our audit focused on assessing the FDIC’s management controls that were
      designed to ensure effective contract oversight management of SRA and its
      subcontractors. Our audit did not assess contract administration services provided by the
      GSA. With respect to payments made by the FDIC for IT goods and services, we
      engaged DCAA to perform appropriate audit procedures to determine whether such
      payments were adequately supported consistent with the terms and conditions of the ISC
      and the Millennia contract. DCAA conducted its work in accordance with GAGAS.


Methodology

      To achieve our objectives, we:

         •    Interviewed DIT and DOA representatives regarding their roles and
              responsibilities for the ISC and the controls the FDIC had in place to help ensure
              effective contract oversight management of SRA and its subcontractors. We also
              interviewed SRA management officials to obtain their perspective on the FDIC’s
              oversight management practices with respect to the ISC. Further, we met with
              contracting officials at GSA’s FEDSIM Center to obtain an understanding of their
              role in the ISC program.

         •    Analyzed relevant reports and contract-specific documents, such as SRA status
              reports and award fee determination reports.

         •    Observed key ISC-related meetings, including meetings of the DIT Procurement
              Management Board and the Award Fee Determination Board.




                                               23
                          This Report Contains Confidential Information
        For Official Use Only                                     Restricted Distribution
                                                                                            APPENDIX 1


     •   Selected a non-statistical sample* of 40 subcontractor employees to determine
         whether required background investigations, confidentiality agreements, and pre-
         exit clearance forms had been completed consistent with FDIC policy. We
         selected the sample from the same four invoices reviewed by DCAA. We
         included SRA and subcontractor employees that were in the FDIC Virginia
         Square location and various field offices.

     •   Selected a non-statistical sample of six SRA subcontractors to determine whether
         integrity and fitness certifications had been completed as prescribed by FDIC
         policy. We selected the sample from the same four invoices reviewed by DCAA.

     •   Considered FDIC and DIT-specific policies related to contract oversight
         management and IT procurement, including:

         o The FDIC’s Acquisition Policy Manual, including the Letter of Oversight
           Manager Confirmation and Letter of Technical Monitor Confirmation.

         o Circular 1610.2, Security Policy and Procedures for FDIC Contractors and
           Subcontractors, dated August 1, 2003.

         o DIT Policy No. 05-002, Procuring IT Assets, dated May 25, 2005.

         o DIT Internal Policy Memorandum, Receiving of IT Assets Policy, dated
           February 12, 2003.

         o DIT Memorandum to GSA, Technical Monitor and Subject Matter Expert
           Designations, Duties, and Responsibilities, dated October 2, 2007.

     •   Considered federal regulations, policies, and recommended practices pertaining to
         interagency and performance-based contracting. Such criteria included applicable
         sections of the Federal Acquisition Regulation (FAR), guidance published by the
         Office of Federal Procurement Policy, and reports issued by the Government
         Accountability Office.

     •   Engaged DCAA to determine whether charges for IT goods and services contained
         in selected invoices submitted under the ISC were adequately supported consistent
         with the terms and conditions of the ISC and Millennia contract. Specifically,
         DCAA assessed whether charges for IT goods and services provided by SRA and
         two of its subcontractors were supported with adequate, original documentation
         consistent with the terms and conditions of the ISC and Millennia contract.
         DCAA’s audit procedures included, for example, examining timesheets to verify
         that the hours billed were actually worked and reviewing qualifications, experience,


*
  The results of a non-statistical sample cannot be projected to the intended population by standard
statistical methods.
                                           24
                      This Report Contains Confidential Information
    For Official Use Only                                     Restricted Distribution
                                                                                   APPENDIX 1

              and education for a sample of contractor and subcontractor employees to ensure the
              employees satisfied the minimum requirements of the ISC and Millennia contract.

              The FDIC OIG selected the following four ISC invoices for DCAA’s detailed
              review.


                   Invoice Number       Period of Performance         Amount
                   600231193            December 1-31, 2006       $ 7,739,724.44
                   600240511            January 1-31, 2007        $11,601,627.29
                   600278697            May 1-31, 2007            $ 4,448,444.71
                   600294828            June 1-30, 2007           $ 7,646,601.36


Internal Control

      We assessed key FDIC internal controls related to the oversight management of the ISC,
      including:

          •   Relevant FDIC and DIT policies, procedures, guidance, and training.

          •   The roles and responsibilities of key ISC stakeholders, including the ISC
              Oversight Committee, Program Manager, Technical Monitors, and Subject Matter
              Experts.

          •   The ISC governance structure.

          •   The ISC award fee determination process.

      In addition, DCAA performed appropriate tests of contractor internal controls for the
      purpose of planning and conducting its audit work.


      Reliance on Computer-processed Data. Our audit objective did not require that we
      separately assess the reliability of computer-processed data to support our significant
      findings, conclusions, and recommendations. Additionally, in performing this audit, we
      did not consider it necessary to evaluate the effectiveness of information systems controls
      in order to obtain sufficient, appropriate evidence.


      Performance Measurement. We determined that DIT’s performance measures under
      the Government Performance and Results Act were not significant to our audit
      objectives.



                                               25
                          This Report Contains Confidential Information
        For Official Use Only                                     Restricted Distribution
                                                                                    APPENDIX 1


Compliance with Laws and Regulations

      The following regulations were relevant to our audit objectives:

         •   12 Code of Federal Regulations (C.F.R.) Part 366, Minimum Standards of
             Integrity and Fitness for an FDIC Contractor – establishes the minimum
             standards of integrity and fitness that contractors, subcontractors, and employees
             of contractors and subcontractors must meet if they perform any service or
             function on the FDIC’s behalf. Part 366 implements sections 12(f)(3) and (4) of
             the Federal Deposit Insurance Act (12 United States Code sections 1822(f)(3) and
             (4)) regarding contractor conflicts of interest and disapproval.

         •   FAR Subchapter G, Contract Management – establishes uniform policies and
             procedures for contract management by all executive agencies, including contract
             management, subcontracting, and quality assurance. We used the FAR as criteria
             because the ISC is a task order awarded under the FEDSIM’s Millennia contract,
             which is based on the FAR.

      We assessed the risk of fraud related to the audit objectives in the course of evaluating
      audit evidence.


Prior Coverage

      We considered the following reports previously issued by the FDIC OIG in planning and
      conducting our work:

         •   Evaluation Report No. EM-08-002, Information Technology Procurement
             Integrity and Governance, dated March 4, 2008.

         •   Evaluation Report No. EM-07-003, Follow-up Work Related to FDIC’s Contract
             Assessment Report, dated May 30, 2007.

         •   Audit Report No. 07-004, Interagency Agreement with the General Services
             Administration for the Infrastructure Services Contract, dated
             January 10, 2007.

         •   Evaluation Report No. 06-026, FDIC’s Contract Administration, dated
             September 29, 2006.




                                               26
                          This Report Contains Confidential Information
        For Official Use Only                                     Restricted Distribution
                                                                     APPENDIX 2




                                       28
                  This Report Contains Confidential Information
For Official Use Only                                     Restricted Distribution
                                                                         APPENDIX 2




                                                                                        *




*
    This attachment is not included in the report.




                                           29
                      This Report Contains Confidential Information
    For Official Use Only                                     Restricted Distribution
                                                                                       APPENDIX 2




                                                                                                          *




* Subsequent to our receipt of the Corporation’s official comments, GSA’s Contracting Officer
Representative (COR) provided a clarification to this sentence on April 10, 2008. Specifically, the COR
commented that the SRA operates under an approved purchasing system, and as such, is required to adhere
to applicable procurement regulations and ensure the best value for the government. The COR has neither
the authority nor the responsibility for SRA’s adherence to procurement regulations.


                                         30
                    This Report Contains Confidential Information
  For Official Use Only                                     Restricted Distribution
                                                                                                   APPENDIX 3
                     MANAGEMENT RESPONSE TO RECOMMENDATIONS


This table presents management’s response to each recommendation in our report and the status
of each recommendation as of the date of report issuance.


 Rec.      Corrective Action: Taken or Planned              Expected       Monetary   Resolved:a     Open
 No.                                                       Completion      Benefits   Yes or No       or
                                                               Date                                 Closedb
  1       The ISC Program Manager will work with          May 30, 2008        $0      Yes           Open
          the Infrastructure Project Manager and
          Service Delivery Manager (once on board)
          to delegate some program management
          responsibilities.

  2       DIT will finalize a draft policy that updates   April 30, 2008      $0      Yes           Open
          and defines the oversight roles of the
          Technical Monitors and Subject Matter
          Experts.

  3       DIT has drafted an update to the Award          April 30, 2008      $0      Yes           Open
          Fee Determination Plan that designates all
          Technical Monitors as voting members. In
          addition, a Secretariat and Recorder have
          been assigned. These changes will be
          included in the next contract modification.
          (Also, see actions taken in response to
          recommendation 4.)

  4       DIT, in coordination with FEDSIM, has           April 30, 2008      $0      Yes           Open
          reviewed the SLAs and presented proposed
          modifications to SRA. Once final
          recommendations have received
          concurrence from all parties, the changes
          will be submitted to FEDSIM for contract
          modification.

  5       DOA has addressed performance-based             May 30, 2008        $0      Yes           Open
          acquisitions in a revised draft of the APM
          and associated procedures and guidance.

  6       DOA, in conjunction with the Corporate          March 17, 2008      $0      Yes           Closed
          University, is sponsoring performance-
          based contract management and statement
          of work training in 2008.




                                               31
                          This Report Contains Confidential Information
        For Official Use Only                                      Restricted Distribution
                                                                                                     APPENDIX 3



     7      DOA will accompany GSA on its periodic      May 31, 2008           $0        Yes           Open
            reviews of SRA procurement actions.
            GSA will issue a contract modification
            documenting the review process in the
            SRA Quality Assurance Surveillance Plan.

     8      DOA will document its process for           May 31, 2008           $0        Yes           Open
            reviewing ISC procurement actions in a
            memorandum to be issued jointly by DOA
            and DIT.


a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed corrective
                   action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but alternative action meets the intent of
                  the recommendation.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary
                  benefits are considered resolved as long as management provides an amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive to the
recommendations, the recommendations can be closed.




                                                 32
                            This Report Contains Confidential Information
          For Official Use Only                                      Restricted Distribution
